TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Office of Appeals Has Improved Its
                 Processing of Collection Due Process Cases



                                      September 21, 2007

                              Reference Number: 2007-10-139




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document..

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 21, 2007


 MEMORANDUM FOR CHIEF, APPEALS

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Office of Appeals Has Improved Its
                              Processing of Collection Due Process Cases (Audit # 200710014)

 This report presents the results of our review of the Collection Due Process (CDP).1 The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) complied
 with the provisions of 26 U.S.C. Sections 6320 and 6330 when taxpayers exercised their rights to
 appeal the filing of a Notice of Federal Tax Lien or the issuance of a notice of intent to levy.2
 The Treasury Inspector General for Tax Administration is required to determine annually
 whether the IRS complied with the legal guidelines and procedures for the filing of a Notice of
 Federal Tax Lien or the issuance of a notice of intent to levy and the right of the taxpayer to
 appeal.3

 Impact on the Taxpayer
 Overall, the Office of Appeals (Appeals) has made improvements to the CDP by properly
 classifying most taxpayer requests to give taxpayers the Appeals review they are entitled to and
 by revising letters to taxpayers to make them more descriptive. However, Appeals hearing
 officers4 were still not consistently including an impartiality statement in the case files, which


 1
   A detailed explanation of the CDP and Equivalent Hearing procedures is included in Appendix V.
 2
   26 U.S.C. Sections (§§) 6320 and 6330 (Supp. III 2000).
 3
   26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
 4
   Hearing officers are either Appeals officers or Settlement officers.
                          The Office of Appeals Has Improved Its Processing of
                                      Collection Due Process Cases



presents a risk of prior involvement in the taxpayer’s case and lack of independence. Also,
Appeals hearing officers were not always documenting whether the Collection function met all
legal and administrative requirements, potentially impacting the actions taken by Appeals. In
addition, the Collection Statute Expiration Dates for some taxpayers were incorrectly
lengthened,5 which is a potential violation of taxpayer rights.

Synopsis
Appeals has improved its handling of CDP cases when taxpayers exercised their rights to appeal
the filing of a Notice of Federal Tax Lien or the issuance of a notice of intent to levy. In our
prior review,6 we reported that some of the CDP and Equivalent Hearing (EH) case files could
not be located; however, for this review, we received 69 of the 70 CDP cases and all 70 EH cases
sampled. This is important because having the files available allows Appeals to determine if all
actions were appropriate and if the Collection function properly carried out the Appeals
determination. In addition, nearly all requests for a CDP hearing and an EH were properly
classified, ensuring taxpayers received the right type of hearing. The CDP hearing and EH
closing letters to taxpayers included descriptive information relating to the issues raised by the
taxpayer as well as the Appeals determination of whether the proposed collection action balances
the need for the efficient collection of taxes with the legitimate concern of the taxpayer that any
collection action be no more intrusive than necessary.
While Appeals has improved its processing of CDP cases, we identified a small portion of CDP
and EH cases in which the hearing officers did not include the impartiality statement or
document whether the Collection function met all legal and administrative requirements when
filing a Notice of Federal Tax Lien or issuing a notice of intent to levy. Most of the instances
occurred because the taxpayers withdrew their CDP or EH requests. Consequently, Appeals was
not required to send a closing letter, which typically contains an impartiality statement and
would have satisfied this requirement. However, in almost all of the cases for which taxpayers
did not withdraw their requests for a hearing, there was adequate documentation to support these
requirements. Subsequent to our review, Appeals revised its written guidance to require that
hearing officers document the case activity records (case histories) for these requirements. Prior
to Appeals revising its guidance, the only requirement for hearing officers to document their
impartiality and whether legal and administrative requirements were met was in closing letters.
Even when a taxpayer withdraws his or her CDP or EH request, all requirements should have
been met and documented in the case activity record during the initial analysis of the case.



5
  The IRS generally has 10 years from the date of assessment to collect a liability owed by a taxpayer. The end of
the 10-year period is the Collection Statute Expiration Date.
6
  The Office of Appeals Should Continue to Strengthen and Reinforce Procedures for Collection Due Process Cases
(Reference Number 2006-10-123, dated September 20, 2006).
                                                                                                                 2
                      The Office of Appeals Has Improved Its Processing of
                                  Collection Due Process Cases



In addition, a significant number of CDP and EH cases in our samples contained errors with the
Collection Statute Expiration Dates. In some CDP cases, the collection statute was extended for
too long a period, improperly allowing the IRS too much time to collect from the taxpayers;
conversely, other collection statutes were not extended long enough or at all, reducing the time
the Federal Government has to collect the delinquent taxes. We also identified EH cases for
which the collection statute date had been inappropriately suspended, thus improperly allowing
the IRS additional time to collect from these taxpayers.

Recommendations
We recommended the Chief, Appeals, revise procedures to require, during the initial analysis of
the case, hearing officers verify and document whether the Collection function met all legal and
administrative requirements when filing a Notice of Federal Tax Lien or issuing a notice of
intent to levy. In addition, the Chief, Appeals, should ensure the Collection Statute Expiration
Dates are corrected on the taxpayer accounts identified during this audit.

Response
IRS management agreed with both of our recommendations. Appeals will revise their written
guidance by January 15, 2008, to include a requirement that hearing officers verify and
document that legal and administrative requirements were met during the initial analysis of the
case. Also, Appeals stated they have reviewed and corrected the incorrect Collection Statute
Expiration Dates on taxpayer accounts identified during the audit. Management’s complete
response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                   3
                               The Office of Appeals Has Improved Its Processing of
                                           Collection Due Process Cases




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Appeals Made Improvements in Classifying Hearing Requests,
          Locating Files, and Communicating the Basis of Appeals
          Decisions to Taxpayers .................................................................................Page 3
          Hearing Officers Did Not Always Document Their Impartiality
          and Whether All Legal and Administrative Requirements
          Were Met ......................................................................................................Page 4
                    Recommendation 1:..........................................................Page 6

          The Collection Statute Expiration Date on Taxpayer Accounts
          Was Not Always Correct ..............................................................................Page 6
                    Recommendation 2:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Collection Due Process Procedures.......................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
       The Office of Appeals Has Improved Its Processing of
                   Collection Due Process Cases




                  Abbreviations

ACDS        Appeals Centralized Database System
CDP         Collection Due Process
EH          Equivalent Hearing
IRS         Internal Revenue Service
                           The Office of Appeals Has Improved Its Processing of
                                       Collection Due Process Cases




                                             Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim, a Notice of Federal Tax Lien
(lien), to a taxpayer’s assets.1 The IRS also has the authority to seize or levy a taxpayer’s
property, such as wages or bank accounts, to satisfy a taxpayer’s debt.2
In February 1996, the IRS established procedures that allowed taxpayers to appeal the filing of a
lien and proposed or actual levies. However, this protection was not mandated by law and there
was no remedy available to the taxpayer if the IRS did not follow its procedures. Collection
actions such as levies and liens often have a significant effect on taxpayers and need to be
handled correctly, in accordance with procedures and controls. Congress was concerned that
taxpayers were not always afforded adequate appeal rights during the collection process and
enacted legislation to protect taxpayers’ rights in the IRS Restructuring and Reform Act
of 1998.3 Taxpayers now have the right to a hearing with the Office of Appeals (Appeals) under
the Collection Due Process (CDP).4 Taxpayers also have the right to a judicial review if they
disagree with the Appeals decision.
When a taxpayer timely requests an Appeals hearing regarding the filing of a lien or the issuance
of a notice of intent to levy, the taxpayer is granted a CDP hearing. If the IRS does not receive
the taxpayer’s request within the required period (generally 30 calendar days), the taxpayer is
granted an Equivalent Hearing (EH). During Fiscal Year 2006, Appeals closed 23,048 CDP
cases and 9,314 EH cases.
The Treasury Inspector General for Tax Administration is required to determine annually
whether the IRS complied with legal guidelines and procedures for the filing of a lien or a notice
of intent to levy and the right of the taxpayer to appeal.5 We have divided this requirement into
three statutory audits: one to review the filing of a lien;6 one to review the intent to levy;7 and
one to review the rights of taxpayers to appeal these issues,8 which is the focus of this report.
This is the seventh annual audit of taxpayer appeal rights we have conducted.



1
  26 U.S.C. Section (§) 6321 (Supp. III 2000).
2
  26 U.S.C. § 6331 (Supp. III 2000).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  A detailed explanation of the CDP and Equivalent Hearing procedures is included in Appendix V.
5
  26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
6
  26 U.S.C. § 6320(a) (Supp. III 2000).
7
  26 U.S.C. § 6330(a) (Supp. III 2000).
8
  26 U.S.C. §§ 6320(b) and (c) (Supp. III 2000); 26 U.S.C. §§ 6330(b) and (c) (Supp. III 2000).
                                                                                                              Page 1
                         The Office of Appeals Has Improved Its Processing of
                                     Collection Due Process Cases



Our previous audit report on the Appeals process was issued in September 2006, and the related
corrective actions were planned for implementation by January 15, 2007.9 The scope period for
this year’s audit covered CDP and EH cases closed between October 1, 2005, and
September 30, 2006, which was earlier than the planned implementation date for the corrective
actions. Because the cases in this audit were closed prior to the completion of corrective actions
by the IRS, we did not make recommendations for findings repeated from the previous audit.
This review was performed at the Appeals offices in Detroit, Michigan, and
San Francisco, California, during the period December 2006 through June 2007. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




9
 The Office of Appeals Should Continue to Strengthen and Reinforce Procedures for Collection Due Process Cases
(Reference Number 2006-10-123, dated September 20, 2006).
                                                                                                       Page 2
                           The Office of Appeals Has Improved Its Processing of
                                       Collection Due Process Cases



the 23,048 CDP cases and 40013 of the 9,314 EH cases closed in Fiscal Year 2006 did not contain
the impartiality statement and resulted in a potential violation of taxpayer rights.
If a hearing officer does not document the case files with a statement of his or her impartiality,
there is a risk of prior involvement in the taxpayer’s case and lack of independence. However, a
lack of this documentation does not mean the hearing officers were not impartial or that
taxpayers received an unfair hearing.
On another required element, Appeals revised its procedures to require that hearing officers
document in the case activity record whether the Collection function met all applicable laws and
administrative procedures for the filing of the lien or issuance of the notice of intent to levy.
Case files for 11 (16 percent) of the 69 CDP and 6 (9 percent) of the 70 EH cases we reviewed
did not contain this required documentation. Therefore, we estimate 3,62214 of the 23,048 CDP
cases and 79915 of the 9,314 EH cases closed in Fiscal Year 2006 did not meet this Appeals
procedural requirement. However, a lack of this documentation in a case file does not mean the
Collection function failed to meet the legal and administrative requirements pertaining to the
filing of the lien and/or the issuance of a notice of intent to levy.
Most of the instances in which the case file did not contain documentation occurred because the
taxpayer withdrew his or her request for a hearing. Consequently, Appeals was not required to
issue a Determination Letter or Decision Letter, which contributed to the lack of documentation
in the case file. The Determination and Decision Letters are required to include specific
language related to impartiality and the meeting of legal and administrative requirements.
Issuance of one of these Letters satisfies the need to document the case file. However, if one of
these Letters is not issued, the hearing officer must include the required documentation
somewhere else in the file, such as the case activity record (case history).
These issues have been brought to the attention of Appeals management in prior reports. In
response to the most recent report, Appeals management agreed to revise written guidance and
provide training to hearing officers for documenting impartiality. Appeals revised its Internal
Revenue Manual in December 2006, requiring that hearing officers include an impartiality
statement in the case activity record during the initial analysis of the case. Because these
corrective actions were implemented subsequent to this year’s review and should improve this
condition, we are making no further recommendations regarding impartiality.
Appeals also revised its Manual to require that hearing officers document in the case activity
records whether the Collection function met all legal and administrative requirements for the
filing of the lien or issuance of the notice of intent to levy. Although this corrective action was
implemented during the scope of our review and should improve the identified condition, it does


13
   Based on a 90 percent confidence level and a precision of ±3.97 percent.
14
   Based on a 90 percent confidence level and a precision of ±7.14 percent.
15
   Based on a 90 percent confidence level and a precision of ±5.48 percent.
                                                                                             Page 5
                          The Office of Appeals Has Improved Its Processing of
                                      Collection Due Process Cases



not address when the review should occur. We believe verifying and documenting whether all
legal and administrative requirements were met should occur during the initial analysis of the
case, to ensure these requirements were met regardless of how the CDP case is ultimately closed.
Collection function deficiencies identified upfront could affect how the case is worked by
Appeals.

Recommendation
Recommendation 1: The Chief, Appeals, should revise current procedures to require that,
during the initial analysis of a case, hearing officers verify and document in the case activity
record whether the Collection function met all legal and administrative requirements when filing
a lien or issuing a notice of intent to levy.
        Management’s Response: IRS management agreed with the recommendation. They
        will revise their written guidance to require that hearing officers verify and document that
        legal and administrative requirements were met during the initial analysis of the case.

The Collection Statute Expiration Date on Taxpayer Accounts Was
Not Always Correct
The IRS generally has 10 years from the date of assessment to collect a liability owed by a
taxpayer. This is referred to as the Collection Statute Expiration Date. Because the IRS usually
stops collection activity during the Appeals process, the Collection Statute Expiration Date is
temporarily postponed or suspended during a CDP hearing. The IRS suspends the
10-year statute of limitations from the date of the CDP hearing request until the date the Appeals
determination is made final or to the date on which the taxpayer withdraws the request in
writing.16
The statute suspension is systemically controlled on the Integrated Data Retrieval System.17 One
code is entered to start the suspension and another is entered to stop the suspension and restart
the statute period. Currently, the code input to suspend the collection statute is usually entered
by the Collection function; however, in certain instances, Appeals is responsible for the input.
Upon completion of each CDP hearing, Appeals is responsible for entering the code to remove
the suspension of the statute period. The Integrated Data Retrieval System will systemically
recalculate the Collection Statute Expiration Date based on the dates entered for the two codes
(which reflect the length of the Appeals hearing plus expiration of the time period for seeking
judicial review, or the exhaustion of any rights to appeal following judicial review).

16
   C.F.R. §§ 301.6320-1(g) and 301.6330-1(g) (2002). The Appeals determination is final upon expiration of the
time period for seeking judicial review, or the exhaustion of any rights to appeal following judicial review.
17
   The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 6
                            The Office of Appeals Has Improved Its Processing of
                                        Collection Due Process Cases



However, in 16 (23 percent) of the 69 CDP cases sampled, the collection statute dates were
inaccurate. For nine of the cases, the IRS had received too much time to collect the delinquent
taxes. In the remaining seven cases, the IRS was not allowed the proper length of time to collect
any unpaid balances. The dates were incorrect because either (1) the code needed to indicate the
start of the collection statute suspension was not input or (2) the suspension start date input was
incorrect. Similarly, the code needed to indicate the end of the collection statute suspension was
not input or the suspension end date input was incorrect. We estimate 5,269 of the 23,048 CDP
cases closed in Fiscal Year 2006 have an incorrect Collection Statute Expiration Date.18
When the taxpayer is given an EH, the collection statute is not suspended. However, in
2 (3 percent) of the 70 EH cases sampled, the collection statute was inappropriately suspended,
which allowed the IRS additional time to collect from the taxpayers. We estimate 267 of the
9,314 taxpayers with EH cases closed in Fiscal Year 2006 had the collection statute
inappropriately extended, resulting in potential violation of taxpayer rights.19
When the IRS suspends the collection statute for a period longer than that allowed, it is a
potential violation of taxpayer rights. This issue has been brought to the attention of Appeals
management in prior reports. In response to the most recent report, Appeals management agreed
to revise written guidance, update templates, and provide training to hearing officers. Appeals
also stated it would develop and implement a procedure to immediately correct taxpayer
accounts when hearing officers identify missing computer codes for suspension of collection
activity. These corrective actions were scheduled to be completed by January 15, 2007, which
was subsequent to the scope of this year’s audit. As a result, we are making no further
recommendations to correct this condition.

Recommendation
Recommendation 2: The Chief, Appeals, should review and correct the Collection Statute
Expiration Dates on the taxpayer accounts identified in our samples.
           Management’s Response: IRS management agreed with the recommendation.
           Appeals has reviewed and corrected all of the incorrect Collection Statute Expiration
           Dates on the taxpayer accounts identified during the audit.




18
     Based on a 90 percent confidence level and a precision of ±8.24 percent. See Appendix IV for more information.
19
     Based on a 90 percent confidence level and a precision of ±3.26 percent.
                                                                                                            Page 7
                          The Office of Appeals Has Improved Its Processing of
                                      Collection Due Process Cases



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with the provisions of
26 U.S.C. §§ 6320 and 6330 when taxpayers exercised their rights to appeal the filing of a Notice
of Federal Tax Lien (lien) or the issuance of a notice of intent to levy.1 To accomplish this
objective, we:
I.      Determined whether any new procedures or processes had been developed since
        completion of the prior Treasury Inspector General for Tax Administration statutory
        review.2 This involved requesting documentation from Office of Appeals (Appeals)
        personnel supporting the implementation of corrective actions to our prior audit reports
        and other procedural or process changes.
II.     Determined whether Appeals CDP3 and EH office and administrative case files could be
        secured and contained minimum documentation for a hearing.
        A. Obtained from the Appeals Centralized Database System (ACDS)4 file maintained at
           the Treasury Inspector General for Tax Administration Data Center Warehouse5 a
           computer extract of CDP and EH cases closed between October 1, 2005, and
           September 30, 2006. We validated the computer extract using information from the
           Data Center Warehouse, reviewed the appropriateness of data within fields requested,
           and compared population totals to information obtained from Appeals personnel.
        B. Selected samples of 70 CDP and 70 EH case files.
             1. Selected statistical attribute samples of 70 CDP cases (from a population of
                23,048 CDP cases) and 70 EH cases (from a population of 9,314 EH cases) based
                on a confidence level of 90 percent, a precision rate of ±6 percent, and an
                expected error rate of 10 percent. We selected a statistical sample because we
                wanted to project results to the entire universe.
             2. Requested and determined whether Appeals could provide the sampled office files
                and whether we could secure the sampled administrative files.

1
  26 U.S.C. §§ 6320 and 6330 (Supp. III 2000).
2
  The Office of Appeals Should Continue to Strengthen and Reinforce Procedures for Collection Due Process Cases
(Reference Number 2006-10-123, dated September 20, 2006).
3
  A detailed explanation of the CDP and EH procedures is included in Appendix V.
4
  The ACDS is a computerized case control system used to control and track cases throughout the Appeals process.
5
  The Treasury Inspector General for Tax Administration Data Center Warehouse stores taxpayer data and allows
auditors to query and download data needed for audit work.
                                                                                                         Page 8
                              The Office of Appeals Has Improved Its Processing of
                                          Collection Due Process Cases



                3. For each sample case file received, determined whether the file contained the
                   minimum documentation required to support a CDP hearing or an EH, which
                   included Notice of Intent to Levy (Letter 1058/LT11) and/or Notice of Federal
                   Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172);
                   Request for a Collection Due Process Hearing or Equivalent Hearing
                   (Form 12153) or similar taxpayer request; ACDS Case Summary Card; ACDS
                   Case Activity Record; Appeals Transmittal and Case Memo (Form 5402);
                   Notice of Determination Concerning Collection Action(s) Under Section 6320
                   and/or 6330 (Letter 3193/3194); Summary Notice of Determination, Waiver of
                   Right to Judicial Review of a Collection Due Process Determination, and Waiver
                   of Suspension of Levy Action (Form 12257); Decision Letter Concerning
                   Equivalent Hearing Under Section 6320 and/or 6330 of the Internal Revenue
                   Code (IRC) (Letter 3210); transcript of the taxpayer’s account; and Collection
                   case history. We discussed exceptions with Appeals personnel.
III.       Determined whether CDP and EH cases were misclassified (should have been an EH or a
           CDP case, respectively).
           A. Using the samples selected in Step II.B.1., reviewed the ACDS, case file, and tax
              account transcript information to determine whether the taxpayers’ hearing requests
              were received timely or late and were properly classified.
           B. Discussed exceptions with Appeals personnel.
IV.        Determined whether Appeals was in compliance with 26 U.S.C. §§ 6320 and 6330 when
           handling CDP and EH requests.
           A. Using the samples selected in Step II.B.1., determined whether the following items
              were addressed by the hearing officer.6
                1. The taxpayer was provided only one hearing for the tax period related to the
                   unpaid tax specified in the lien/levy notice. [26 U.S.C. §§ 6320(b)(2) and
                   6330(b)(2)]
                2. The taxpayer was provided with an impartial hearing officer or waived this
                   requirement. [26 U.S.C. §§ 6320(b)(3) and 6330(b)(3)]
                3. The hearing officer obtained verification that the requirements of any applicable
                   law or administrative procedure were met. [26 U.S.C. § 6330(c)(1)]
                4. The taxpayer was allowed to raise issues at the hearing relating to the unpaid tax,
                   the filing of the lien, or the proposed levy action. This could include appropriate
                   spousal defenses, challenges to the appropriateness of collection activities, offers


6
    Hearing officers are either Appeals officers or Settlement officers.
                                                                                                 Page 9
                    The Office of Appeals Has Improved Its Processing of
                                Collection Due Process Cases



            of collection alternatives, or questions about the underlying liability. [26 U.S.C.
            § 6330(c)(2)]
        5. The hearing officer made a determination after considering whether any proposed
           collection action balances efficient tax collection with the taxpayer’s legitimate
           concern that any collection action be no more intrusive than necessary.
           [26 U.S.C. § 6330(c)(3)]
     B. Discussed exception cases with Appeals personnel to confirm and determine causes.
        After confirmation, we estimated the number of potential exceptions within the
        population.
V.   Determined whether the collection statutes were properly suspended.
     A. Using the samples selected in Step II.B.1., determined whether the collection statutes
        had been properly suspended for CDP cases and not suspended for EH cases.
     B. Discussed exception cases with Appeals personnel to confirm and determine causes.
        After confirmation, we estimated the number of potential exceptions within the
        population.




                                                                                         Page 10
                     The Office of Appeals Has Improved Its Processing of
                                 Collection Due Process Cases



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Janice M. Pryor, Audit Manager
Joseph P. Smith, Lead Auditor
Julia M. Collins, Senior Auditor




                                                                                    Page 11
                    The Office of Appeals Has Improved Its Processing of
                                Collection Due Process Cases



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP




                                                                           Page 12
                           The Office of Appeals Has Improved Its Processing of
                                       Collection Due Process Cases



             administrative requirements when filing a lien or issuing a notice of intent to levy (see
             page 4). Using a 90 percent confidence level and a precision of ±7.14 percent, we
             estimate 3,622 CDP case files did not contain documentation whether all legal and
             administrative requirements were met.
         o There were 9 CDP cases (13 percent) for which the taxpayer’s Collection Statute
           Expiration Date had been suspended longer than the length of the CDP hearing (see
           page 6).5 Using a 90 percent confidence level and a precision rate of ±6.57 percent,
           we estimated 2,964 CDP case files had the Collection Statute Expiration Date
           suspended longer than the length of the CDP hearing, resulting in a potential violation
           of taxpayer rights.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 1,065 closed EH case files did not contain 1 or
    more of the following: Sufficient documentation of impartiality, sufficient documentation
    whether the Collection function met all legal and administrative requirements, and/or
    verification of the suspension of the collection statute.

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 9,314 EH cases closed
in Fiscal Year 2006. We selected a statistical attribute sample of 70 EH cases and found
8 (11 percent) case files did not contain 1 or more of the following: sufficient documentation of
impartiality, sufficient documentation whether the Collection function met all legal and
administrative requirements, and/or verification of the suspension of the collection statute.6
Using a 90 percent confidence level and a precision rate of ±6.23 percent, we estimated
1,065 EH case files could affect taxpayer rights and entitlements.7 The 8 EH case files are
comprised of the following:
         o There were 3 EH case files (4 percent) that did not contain documentation the hearing
           officer was impartial (see page 4). Using a 90 percent confidence level and a
           precision of ±3.97 percent, we estimate 400 EH case files did not contain
           documentation of impartiality.


5
  The IRS generally has 10 years from the date of assessment to collect a liability owed by a taxpayer. The end of
the 10-year period is the Collection Statute Expiration Date.
6
  There are more individual EH case files presented in the bullets that follow because a single case file can contain
more than one of the three errors identified. The total amount was reduced because three cases contained more than
one error.
7
  The sum of the projections of the 3 errors in the bullets is 1,466, but includes cases with multiple errors. Our
projected estimate of 1,065 EH case files is based on the 8 case files that had 1 or more of the errors identified to
avoid duplication in the projection.
                                                                                                            Page 14
                      The Office of Appeals Has Improved Its Processing of
                                  Collection Due Process Cases



       o There were 6 EH case files (9 percent) that did not contain documentation the hearing
         officer verified whether the Collection function met all legal and administrative
         requirements when filing a lien or issuing a notice of intent to levy (see page 4).
         Using a 90 percent confidence level and a precision of ±5.48 percent, we estimate
         799 EH case files did not contain documentation whether all legal and administrative
         requirements were met.
       o There were 2 EH case files (3 percent) in which the taxpayer’s Collection Statute
         Expiration Date was inappropriately suspended (see page 6). Using a 90 percent
         confidence level and a precision rate of ±3.26 percent, we estimated 267 EH cases
         had the Collection Statute Expiration Date inappropriately suspended resulting in a
         potential violation of taxpayer rights.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; 2,305 taxpayer accounts affected (see page 6).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the ACDS, we identified a population of 23,048 CDP cases
closed in Fiscal Year 2006. We selected a statistical attribute sample of 70 CDP cases and found
7 (10 percent) for which the taxpayer’s Collection Statute Expiration Date had not been
suspended for the length of the CDP hearing. Using a 90 percent confidence level and a
precision rate of ±5.89 percent, we estimated 2,305 CDP cases had not had the Collection Statute
Expiration Date suspended for the length of the CDP hearing.




                                                                                        Page 15
                          The Office of Appeals Has Improved Its Processing of
                                      Collection Due Process Cases



                                                                                              Appendix V

                   Collection Due Process Procedures

The IRS is required to notify taxpayers in writing that a lien has been filed or when it intends to
levy.1 A taxpayer is allowed to appeal the filing of the lien or proposed levy action through the
CDP by filing a hearing request.2 This hearing request must be received within 30 calendar days
plus 5 business days of the filing of the lien or within 30 calendar days of the date of the notice
of intent to levy.3 If a taxpayer’s hearing request is submitted on time, the IRS will suspend all
collection efforts and the Office of Appeals (Appeals) will provide the taxpayer a CDP hearing.
If the taxpayer disagrees with the Appeals decision, he or she may petition the courts. If a
taxpayer’s hearing request is not submitted timely, Appeals will provide the taxpayer an EH and
consider the same issues as in a CDP hearing; however, the IRS is not required to suspend
collection action and the taxpayer does not have the right to a judicial review.
Taxpayers are entitled to one hearing per tax period for which a lien or notice of intent to levy
has been issued. The hearing is conducted by an Appeals officer or Settlement officer (hearing
officer) who has had no prior involvement with the unpaid tax.4 During the hearing, the hearing
officer must verify whether the requirements of all applicable laws or administrative procedures
related to the lien or notice of intent to levy were met. The hearing officer must also address any
issues the taxpayer may raise relevant to the unpaid tax, the filing of the lien, or the proposed
levy, such as whether the taxpayer is an innocent spouse; determine if collection actions were
appropriate; and decide if other collection alternatives would facilitate the payment of the tax.
The hearing officer must determine whether any proposed collection action balances the need for
efficient collection of taxes with the taxpayer’s legitimate concerns. The taxpayer may not raise
an issue that was considered at a prior administrative or judicial hearing if the taxpayer
participated meaningfully in the prior proceeding.
At the conclusion of a hearing, Appeals provides the taxpayer a letter with the hearing officer’s
findings, agreements reached with the taxpayer, any relief provided to the taxpayer, and any
actions the taxpayer and/or the IRS are required to take. For a CDP case, the taxpayer receives
either a Determination Letter, which provides an explanation of the right to a judicial review, or
a Summary Notice of Determination, which is used when the taxpayer agrees with Appeals,



1
  26 U.S.C. Sections (§§) 6320(a) and 6330(a) (Supp. III 2000).
2
  Taxpayers can use Request for a Collection Due Process or Equivalent Hearing (Form 12153) or other similar
written communication to request a CDP hearing.
3
  26 U.S.C. §§ 6320 and 6330 (Supp. III 2000).
4
  The taxpayer may waive this requirement.
                                                                                                        Page 16
                        The Office of Appeals Has Improved Its Processing of
                                    Collection Due Process Cases



waives the right to a judicial review, and waives the suspension of collection action. For an
EH case, the taxpayer receives a Decision Letter.
The CDP or EH case is reviewed by the hearing officer’s manager at the completion of the case
to evaluate whether the hearing officer followed all requirements and procedures. In addition,
the Appeals Quality Measurement System reported a 79 percent and 80 percent overall
compliance rate for CDP and EH cases, respectively, completed in Fiscal Year 2006. This is
down from 81 percent for both CDP and EH cases completed in Fiscal Year 2005.5
After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The Appeals office that made the
original determination generally retains jurisdiction over the case.




5
  The Appeals Quality Measurement System scoring methodology was changed for Fiscal Year 2006; Appeals
restated the Fiscal Year 2005 scoring based on the same methodology for comparison.
                                                                                                   Page 17
       The Office of Appeals Has Improved Its Processing of
                   Collection Due Process Cases



                                                    Appendix VI

Management’s Response to the Draft Report




                                                              Page 18
The Office of Appeals Has Improved Its Processing of
            Collection Due Process Cases




                                                       Page 19
